CERTIFICATE OF SERVICE

I, Josh S, O’Hara, hereby certify that three copies of the accompanying document were
served by mail upon the following parties:

Michael B. Kimberly, Esq.
McDermott Will & Emery LLP
500 North Capitol Street NW
Washington, DC 20001

Noel Francisco

Solicitor General

Office of the Solicitor General

950 Pennsylvania Avenue, NW, Room 5616
Washington, D.C. 20530-0001

For the Vermont Association of Criminal Defense
Attorneys,

    

2 34 ul 714 iu

Date Joshug S. O’Hara, Esq.
Verifiont Defender General’s Office
6 Baldwin Street, 4" Floor
Montpelier, VT 05633
